HHS/OIG-Audit--"Review of Foster Care Placements Under Title IV-E, Illinois Department of Children and Family Services, (A-05-95-00053)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Foster Care Placements Under Title, IV-E, Illinois Department
of Children and Family Services," (A-05-95-00053)
February 28, 1996
Complete Text of Report is available in PDF format
(26 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides you with the Results of our Review of Foster Care
Placements made under the Title IV-E program. Our primary objective was to determine
whether relative foster homes are approved based on the same licensing standards
that are used for non-relative homes. The review covered the period April 1,
1994 through March 31, 1995.